No. 21-

 

IN THE
Supreme Court of the United States

JOSEPH CHAPO, SHERRY CHAPO, DEPUTY BIG SHOT LLC,

Petitioners,
v.

JEFFERSON COUNTY PLAN COMMISSION,
Respondent.

On Petition for Writ of Certiorari
From the Supreme Court of Indiana

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

8,497 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 25, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
